             STATE liCENSURE AND

           DISCIPLINE OF PODIATRISTS





  "" S 'aYlc'.r.




    ""Ja


OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                     DECEMBER 1988
           STATE LICENSURE AND

         DISCIPLINE OF PODIATRISTS





                   Richard P. Kusserow
                   INSPECTOR GENERAL




OAI- 01-8- 00583                         DECEMBER 1988
                                                                                            .-._--..-




                                  EXECUTIVE SUMMARY

PURPOSE AND OBJECTIVES

The overal ai' ofthis inspection was to promote a better understJnding of St        licensure and
discipline practices concerning dentists, chiropractors, optometrists, and podatrq . It sought
to identify the extent and type of changes occurrng, the major issues being adc: ed. and th-=
kinds of improvements that might be made. This repon, which focuses on the -=nsure and
discipline of podatrsts, is the third in a series ofrepons to be issued as pan of th inspection.
Pror repons focused on dentists and chirpractors, and a founh will focus on opt()memsts.


BACKGROUND

The insption follows up on a simlar inquir conducted by the         Offce of Insre;: or Gener
in 1985 and 1986 that addrssed medcal licensur and discipline. It is based J :mary on
the  lines of inquir: (1) telephone discussions with board members or staff 01 !e li ensu,::
and discipline boies, (2) a review of pertnent literatur and   data bases,   and (3) discussions
with representatives of national professional associations.

This repon s organization and presentation closely parlel that of the first ana second report
of the overall inspection. A number of the findings and recommendations also p:::allel those
set fort in the previous repons.

FINDINGS

            In both the licensure and discipline realms, State board offcials tend to feel that
            they are inadequately funded and staffed, and. that, as a result , the eff ctiveness of
            both licensure and discipline operations is undennned.

      Licensure

           State podiatr board policies concerning licensure by credentials--the practice of
           grting a license on the basis of one alady held in another State--tend to be
           extremely restrctive. Twenty- the boars wil issue licenses in this manner , but
           19 of them impose one or more restrctions on the 'applicant.

           The majority of practicing podiatrists are concerned about this situatjl\r becau
           they feel it inhibits their economic opponunity and freedom of interstate:
           movement. Less obvious, but of greater concern to consumers, is th::: in a
           number of States this policy appears to constrain access to podiatrc services, It is
           strking that among the 28 States that wil not grnt licensure by credentiak :(1
           have podiatrst-to- population ratios below the national average.
           ,.;.
:""
      :;''::'     - ,_
                :!\;     :::




      L.:y board offi jals , paricularly in larger States, feel an increasing sense of
     CC'" , tm about the adequacy of the background infonTation they receive on
                . f::     ure, This involves both the validity of the credentials being
     submitted and the completeness of the infonnation being provided.

     A r. jor factor contrbuting to this concern is the widely perceived inadequacy of
     the two national clearinghouses that collect and disseminate infonnation on
          iplinary actions taken against podiatrsts. Most board offcials express serious
        er\'ations about the extent , quality, and timeliness of the data provided by these
     cle :inghouses.

Disciplin

     D,j :;lg the p:lst 3 years, the annual number of State board disciplinar                       actions
     apinst podiatrsts has       nearly doubled. Between 1984 and 1985, it rose from
                : 84 to 107. From 1985 to 1986, it jumped from 107 to. 159.

     Fifteen State boards took no disciplinar               actions against podatrsts from 1984 to
     19\6.

     Tr. ' ::'0St serious types of            disciplinar actions--revocations, suspensions, and
                         "'ns--accounted for only 35 percent of all the disciplinar actions taen
                            )diatrists. This represents a drop from 1984 , when they represented 44
     per,                  .f al! actions,

     r..
                    acti0n rates concerning podiatrsts are much higher than those
                               r:'

     cor.,;aning medical doctors, or both dentists and chiropractors, the subjects of the
     fi;,: two rep0rts in this inspection. In 1985, podiatry boards disciplined about 9.
     podiatrsts per 1, 00 active podatrsts; denta boards, about 5.4 dentists per 1,
             dentists; chiropractic boars, about 5. 3 per 1, 00; and medcal boards,
     about 4. 2 per 1, 000.

      Va;-iation in disciplinar perfonnance is also substantial when State podatr
      b..'               are compared among themselves. These facts stand out:


                    her              years, tWo boards were disciplining podiatrists at a rate thar
                                 lllL' past


                 far exceeded chat of any other board. In 1985, one ofchese boards
                 accowlIed Inr ahnll      26 percent of l/ disciplinary actions taken against
                 podiarrists illlhe Uniced Slates.

                  There i,\ lillie variacirl1 in the rate of disciplinary activity with respect to the
                  si:e nf SImes, Tile mosc       significant variation   lies   ",.'ith the   medium-sized
            States. These States hold                   24   percent of active podiatrists, yet were
                esponsible for 30 percent of all disciplinary actions from 

                                                                                           1984     to   1986.


            The rate of disciplinary action has been disproportionately high in the Sowh
            and low in the Midwest. Although southern States have only 20 percent of
            active podiatrists, th y accounted for         34 percem of the reponed disciplinary
            actions betWeen        1984    and 1986,  whereas in the Midwest, the comparable
            rates were      26 percent and        percent.

      Compartively low license renewal fees appear to be closely associated with low
      rates of disciplinar action. Of the 10 State boards with annual renewal fees of
      $25 or less in 1987, 5 took no actions at al frm 1984 to 1986, and another State
      disciplined poatrsts at a rate well below the national median for that period.

      Consumer complaints ar by far the major source of disciplinary actions against
      poatrsts. In contrst, relatively few such actions emerge as a result of referrls
      frm State poiatr societies or investigations initiated by the boar themselves.

      State podatr boar officials tend to be supportve of the national data ban to
      established under Public Law 99- 660. However, they rase a number of concerns
      assocated with its implementation, among them the accuracy, confidentiality,
      timeliness, and accessibilty. of the bank' s data.



RECOMMENDATIONS

       State , governments           should ensure that State poiatry boards            have   sufficient
       resources to car             out their responsibilties effectively.

       S tate   podiatr boars should join together to establish and use a high- quality,
       national clinical licensure examination.

       State podiatr          boards should s.hore-up their credential verification               processes.

       The Federation of Podiatrc Medical Boards (FPMB) should develop guidelines
       for State      podiatr practice acts.

       The FPMB, in consultation with the American Podiatrc Medical Association,
       should accumulate and disseminate, on a regular basis, changes in State practice
       acts and regulations.
           The FPMB should identify and disseminate to State boards the most effective
           techniques of credential verification.

           The, American Podiatrc Medical Association (APMA) should encourge more
           extensive and effective inter-action between its State societies and State podiatr
           boards.

           The Public Health Service should assist the FPMB to extend and improve its
           technical assistance and information dissemination activities.


COMMENTS

The APMA and FPMB were in general agrement with the recommendations diected to them,
                                                                                  The PHS
and in some cas s have initiatives underway that address the issues in the repon.
and American Association of Colleges of Podatrc Medcine expressed some concerns that the
                                                                                  received,
repon did not go far enough in some areas. These concerns, as well as al comments
are " addressed in appendix IV of the repon.
                                                ... .... ...................
                                                                ............
                                                          ... ....               ............
                                                                          .........      ............
                                  .........................................................
                    ........ ..................................                               .....
                                                                 ..................................
                                                      ......... .......                               ............ ................
                                                                                                       .... ......
                                                                        ...... ... .... ....................        .........
                                                                                                 ...............................
                                                                                                             ............           ........ ......
                                                                                                .........................................
                                                                                                                                   .........
                                                                                                                           ...............
                                                                                                                   .... ..........            ......
                                                                                                                                              .....
                                                                                                    ..............................................




                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY
                                                                              .................... 1
INTRODUCTION... ....... ....... ....... ..........
    PRACTICE OF PODIATRIC MEDICI N E ................................................ 1
    STATE BOARDS OF PODIATRY ..................................................................... 4

LIC E NSU R E.
                                                                                                                                         ......... 6
      LICENSURE BY CREDENTIALS ..................................................................... 7
      ADEQUACY OF BACKGROUND INFORMATION ................................. 8
                                                                                                                                                   :1 0
DISCI PLIN E... ..... .... ..... ..... .....
      INCIDENCE AND TYPE OF DISCIPLINARY ACTIONS .......................

      TYPE OF VIOLATION................................ ............ ...... ....... 

      SOU RCE OF DISCIPLINARY ACTIONS ..............................................

      THE ADMINISTRATIVE PROCESS ................................................................

      INFO RMA TI 0 N S HARI NG.........................................................0.. .... ................


R ECO M M EN D A TlONS                ...... ...e....

APPENDIX I
   NOTES ...... ... e.. ......... ........ .... .....................
                                                
                     .e... ....




APPENDIX II
       BACK G ROU N D

APPENDIX III
   METHODO. LOGICAL NOTES                                                         ............... ......... .................. ......... ... 27

 APPENDIX IV
    COMMENTS ON THE DRAFT REPORT AND
       OIG RESPONSE TO THE COMMENTS............................................ .29
                                       INTRODUCTION


 In June 1987, the Offce ofInspector General undenook an inspection of State licensure and
 discipline practices concerning dentists, chiropractors, optometrsts, and podiatrsts.   The over­
riding purose of the inspection was to provide the Federa and State governments and the
respective professional communities with a better understading of these practices. More
specifically, it sought to identify the extent and type of changes takng place, the major issues
 that are suracing, and the kinds of improvements that might be made. (For more background
 on why the study was undenaken, see appendi II.

This repon focuses on podatrc mecine and is the third of four repons to be issued as par of
the above-noted inspection. It is based on thee avenues of inquir: (1) telephone discussions
with board members or sta associated with poiatrc licensure and discipline boes in
states; (2) a review of pertnent literature and data bases, includig joural arcles, studies,
prepar speeches, and statistical compilations of public and private organizations; and (3) dis­
cussions with rep sentatives of varous professional associations. These include the
American Podatrc Medical Assoiation (APMA), American Association of Colleges of
Podatrc Medicine (AACPM), Federation of Podatrc Medcal Boards
                                                                         (FMB), and the
Council on Podatrc Medical Education (CPME). (For more methodological background, see
appendix III.

Podatrc medcine has fewer practitioners than any other health profession 1 ; nonetheless, it
has an imp,onant and grwing role in health car. In 1987 there were about 12, 40 practicing
pod trsts                tates. Podatrsts ar classified as " physicians " under Medicar
           2 in the United


law, but only with respect to the functions they ar legally authorize to perform in the State
in which they practice. Thus the services they provide within the scope of their State license
ar "physician s services " and ar reimbursable on a reasonable charge basis under Pan B of
the Federa Medicar Prgram In Fiscal Year (FY) 1985. these expenditurs totaled $211.8
millon.

In the case of Medcaid, the role of poatrsts and the level of expenditur for which they ac­
count are less clear. Statistics ar dificult to come by because podatrsts are included in the
general category of " Other Physician Services. It is estimated, however, that less than 5 per­
cent of poatrsts ' practice income comes from Medicaid.

This repon stas with brief overviews of the practice of podiatrc medicine and State boards
of podiatr. It also examines the major changes and issues affecting licensure and
discipline and suggests areas of action directed primarily to State boards of podiatr.

PRACTICE OF PODIATRIC MEDICINE

Much like dentists and chiropractors, podiatrsts practice in relative isolation. While increas­
ing numbers of podiatrsts have staff privileges at one
                                                     or more hospitals, offce tratment still
predominates. By 1983, 73 percent of podiatrists had some type of professional privilege in
                                                                                                . :.     '::'




hospitas and 58. 5 percent had surgical privileges, but less than 15 percent ofpodia::-..
                                                                               S The \':
physicians treated more than 5 percent of their patients in hospital settings,            ::.iority
of patientS continue to be trated in the podiatrsts ' offces,

Even in the office setting, most podiatrsts work alone. According to a report prep:i:-" : for the:
APMA by ELM Services, Inc., in 
  1985-- The Economics of Foot Care    --about 72 perctnt of
podatrc physicians were in a solo practice, 13 percent were involved in a parership, 5 per­
cent were in a group practice amgement, and the remaining 10 percent were eithe :Q'
employed by the government or a podiatrc medical college, or not in active practk\;,

A 1983 surey of poatrsts                  by the APMA found that increasing number
                                       conducted
podiatrsts are looking to the American Boar     of Podatrc Surgery (ABPS) and the American
Boar of Podatrc Onopecs (ABPO) for certfication in these two specialties. According
to the surey, in November of 1983. 14. 8 percent of active poatrsts were ABPS cenified,
with 16. 5 percent eligible, and 1.9 percent were ABPO certfied, with 0. 1 percent elIgible for
board certfication.

The grater pan of a podatrst               tie
                                    is spent on activities that ar considered genemJ practice,
Although, in recent year an emphasis has ben placed on poatrsts ' developing skills in
surgery and foot ortopedcs. this specialty is most often incorporated into their regu! :- prac­
tice. Specialzation, in the everyday medical sense, is rae.

Podatr is largely a white male profession, although the numbers of minority and femJ.::: stu­
dents enrlled in colleges of poiatrc medicine have been incrasing, as shown in fi;:. -


                                                     FIGURE I



          NUMBERS OF WOMEN AND MINORITIES ENROLLED IN
            COLLGES OF PODIATRIC MEDICINE. 1976-1986
    700                                                                                                INORITIES
    650                                                                                         !Q

    600
    550
    500
    450
    400
    350
    300
    250
    200
    150
    100
                         JAil
           1976   1977          1978   1979   1980    1981   1962   1963   1984   1985   1986
                           Source: AMERICAN ASSOCIATION OF COLLEGES
                                        PODIATRIC MEDICINE
It should be noted, also, that the attrtion rate for women and minorities is greater than the
overall attrtion rate of 12. 7   percent. According to data from the American Association of Col­
leges of Podiatrc Medicine (AACPM minorities in 1985 experienced an atttion              rate of
20. 8 percent and women 17. 2      percent.


The number of all students enrolled in the colleges of podatrc medicine has leveled off after
a period of expansion in the late sixties to mid-seventies. The growth at that time was due to
incrased Federa aid to both schools and st dents and to the schools' effons to increase class
size. Another general upward trend in enrollment occUIed in the 1980' s when tWo new
schools opened, the College of Podatrc Medicine and Surgery in Des Moines, Iowa (1982),
and the Bar University School of Podiatrc Medcine in Miam Shores, Florida (1985).

                                              FIGURE II



       PODIATRIST:POPULATION RATIOS SHOWING GEOGRAPHIC

                 DISTRIBUTION OF PODIATRISTS,

                                   1974, 1983, AND 1987
                                                                             NORTHEAST
                                                                             t.AIDWEST

                                                                           &1 SOUTH
                                                                           o WEST

                                                                           raTOTAL UNiTED STATES





                    1974 1983
                      Sources: 1974 Data on
                                                               1987
                                               Active Podiatrists From
                      National Center for Health Statistics; 1983 Data
                      From APMA; 1987 From State Boards/Census Bureau




Although the number of practicing podatrsts has increased over the past 10 to 15 year, there
has been no significant improvement in their geogrphic distrbution when concomitat in­
creases in population ar also considered. For example, the data show that from 1974 to 1987,
the Nonheast had the highest ratio of podiatrst to population as well as the largest per-ratio in­
crease over those year (figure II).

In 1984 the American Podiatrc Medical Associ::tion(APMA) fonned a panel of prominent
podiatrsts and others to take a look at the profession of podatrc medicine and char a path for
its future. Called the " Project 200 Commission, " its final repon was presented to the APMA
House of Delegates in 1986. The report cited several major aras      of concern identified by the
Commission. One of these was the education of podiatrsts. " The goal of podatrc medical
education, " stated the report, " must be to produce a ' comprehensive footcar physician, ' a
tOtal specialist who is well versed in all areas of his or her field, with a redirection and em
                                                  , "




  phasis on non- invasive and biomechanical procedures in patient care.
                                                                           " The repon  , according



                                  II
  to former APMA president Dr. Jerr D. Brant did nOt say that
                                                                     podiatrc surgery should be
  abrogated. On the contrar, excellence must be the standard here
                                                                       , because competirion among
  physicians wil be most intense in this area. It is crtical for the
                                                                     profession  to prouce all-
  aroun l"loot car p  YSlClans.

  The repon also recommended adoption ofa uniform podiatrc
                                                                     practice act It is widely felt
  that differing State laws ' confuse not only the public but Other practitioners as well.
  of this uniform act would be the scope of practice recommended by the                     The base
  sion. Ths cals for an anatomical scope that includes the foot
                                                                              Prject    200  Commis­
                                                                    , ankle and soft tissue of the
  lower leg, dista to the tuberosity (protUberance) of the tibia.


 STATE BOARDS OF PODIATRY

 Two deades ago, State podiatr boards, like Other State licensing boards, were little-nOticed
 entities of State Government. In many cases, because the regulation of
                                                                         podatr was assigned
 to the medcal boards, it was dominated by medical
                                                      doctors. Only where independent
 podatrc licensing boards existed did the profession itself dominate. Most
 whether podatrc or composite, had linle operational interaction .          of the boards,
                                                                   with o er professional
 boards or even with sister boards in other States. Although their
                                                                   responsibilties typically
 covered both licensure and discipline, they focused primarly on the former
 on the development and administration of their own licensing examinations. , and
                                                                                Thein panicular
 would discipline a podiatrst occasionally, but their                                 boars
                                                        authority and n;adiness to do so were quite
 limi ted.

Now the pictue has changed somewhat. With the growth in the number of podatrstS, the
development of the consumer movement, the widespread use of practice-
                                                                           building techniques
(including advenising), the heightened concerns about infectious disease, and the
tention to the cost and quality of health care, State boards of                     incrased at­
                                                                podiatrc medicine function in
more visible environment with a
                                   grater degree of accountabilty to the public. Although the
scope and intensity of the changes have not been as great for State medical
theless have been significant                                                boars, they never-

About 63 percent of State podia ' boards repon that they
                                                            ar now pan of a centralized State
agency, and at least 80 percent have one or more non-
                                                        podiatrst members their board
directors. I2 Nearly all the boards (94 percent) have responsibility for bothonlicensure and of
                                                                                             dis­
cipline.

The staff and financial resources available to the boards are not as e
                                                                       asily detennned. Only
three of them report that they have two or more staff members
                                                                , but in many cases this does not
include staff reporting to an umbrella agency that may provide some assistance to a board,
Similarly, the budget of a board is often obscured within the budget of a larger agency.
It is clear, however, that in nearly all States the board revenues derive entirely from fee im­
posed on podiatrsts and any other occupational groups covered by the board. These inciuj

application , examination, and varous other fees. The major source of revenue is the license
renewal fee imposed on practicing podiatrsts, which in 1987 ranged from $10 to $65()        nual­
ly; the medan was $50. Half the boards with whom we spoke imposed fee increases during
the last 2 years or are planning to do so, although one State reported lowering its renewal f~e.
But, because boards tyically ar pan of the State budget process and subject to the same
budgeting and personnel controls as othe! State agencies, fee increases do not necessarly
mean an incrase in their resources. Thus, even though the licensure and discipline of
podatrsts has grown to become an estimated $2 millon-a- year enterprise, 14 may board rep­
resentatives feel they ar seriously underfunded in caring out their extensive responsibilities,
                                             LlCENSU RE
  Over time, State podatr boars have come to judge applicants on the basis of four major re­
  quirments: (1) graduation from an accredited or approved college of
                                                                        podatrc medcine; (2)
  passage of the Wrtten exam given by the National Board of
                                                              Podiatrc Medical Examners; (3)
  passage of a State clinical exam; and (4) in increasing numbers, completion of an approved
  residency or preceptorship.

  Of these four requirements; grduation is the most consistently and formally applied by the
  States. Almost all have specific wrtten regulations that
                                                            reuire an applicant be a graduate of a
  school approved by the national accrediting body, the Council   on
                                                                      Podiatrc Medcal Education

  (CPME); if this requirement is not offcially spelled out in the statutes or regulations, it is
  usually the policy of the boar nevenheless. Few applicants for
                                                                    poatrc licensur
 graduates of foreign schools. Only seven State board representatives     reponed that they had
 received inquires. frm
                           grduates of foreign schools over the past 3 to 4 year, and of
 only four had received fonnal applications. Seven States told us that it                   these,
 licensed without a degre from a U. S. podatrc                              is possible to be
                                                  medical college, most often because of a lack
 of specific language in State laws and regulations. Most States said they had never had to deal
 with such a situation.

 The NBPME testing requirement is the second most consistently applied by States, with near­
 ly all specifying that an applicant for licensure must pass the two-pan test.
 focuses on the basic biomedical sciences, is usually taken                    Pan I, which
 II, taen durng the final year of school, addsses varous     afer 2 year of
                                                                            poatr school; par
                                                             cliical subjects

 Accordig to a Council of State Governments repon published in 1986,
                                                                           20 of the 50 States
and the Distrct of Columpia require passage of a practical clinical exam for
requir passage of an ora clinical                                            licensur and 16
                                   exam. Most States have developed their own
ing numbers (eight as of August 1987) ar using a                                , but increas­
                                                   clinical exam developed for VIrginia by the
Local Government Researh Corporation of
                                            State College, Pennsylvania. It was first used in
VIrginia in 1982 and is presently under consideration by severa States.

Each of the practical exams seeks to assess the clinical readiness of candidates, and in so
doing reuirs them to conduct procedures on patients. Yet the contents of the
the detennnations of acceptable                                                  tests var as
                                perfonnance.
The founh major requirement--completion of an approved residency or preceptorship--
ing prominence among the States. Ten of the 17                                              is gain-
                                                    States that reponed major legislative or
regulatory changes in licensure requirements over the past 3 to 4
                                                                    year named the instituting
of a residency/internship/ preceptorship requirement. While this was     the most
sure change, two other issues were also mentioned: licensure by credentials-- COmmon licen­
suing a license to a podiatrst on the basis of a                                 the practice of is­
                                                 license held in another State--and the adequacy
of background information provided on applicants for licensure.
LICENSURE BY CREDENTIALS

The policies of State boards in granting licensure by credentials ar extremely restrctive and
severely limit the ability of podiatrsts to move freely from one State to another. States usual­
ly have adopted three approaches to the question of recognizing a license frm another State.

The fIrst of these is simple non-recognition of such a license-- the curnt practice in 10 States.
All applicants must meet the same criteria as a new grduate of poatrc mecal school seek­
ing licensure for the first time. This usually means they must pass the curnt licensing exam,
which can pose a problem for those who are not recent graduates. Moreover, increasingly
they must fulfll a reuirement for some kind of post- graduate trning.

The second approach is the grting of a license by reiproty. That is, the State recognizes
the licenses of practitioners only from States with which they have fonnal reciprocal agree­
ments. CUIently, 18 States     grt  licenses in this manner, but only 3 do so without imposing
funer restrctions. The most common of these restrctions ar the stipulations that the prac­
titioner must have taken a clinical practical exam and, increasingly, that they must have com­
pleted a residency program in order to have been licensed initialy.

The third approach adopted by some States is endorsement or crentialing.             Ths shifts the
focus to the individual qualifications of the applicant. Endorsement is a unilatera decision by
                                                                                          16 Al­
a- State to   adt licensed individuals frm another State to practice without examnation.
though 23 States grnt licenses by endorsement, 19 of them impose one or more restrctions
on the applicant, in effect limiting the tre meaning of endorsment. 17 There is a need to
simplify and broaden the whole process. It is believed by some in the licensing community
that a national clinical examination is one key to the achievement of universal licensing by en­
dorsement

                                             FIGURE II

          PODIATRIC RESIDENCIES AVAILABLE TO GRADUATES OF

                  COLLEGES OF PODIATRIC MEDICINE,
                             ACADEMIC YEAR 1984-85

    600
                                                                                NUMBER OF' PROGRA

    500                                                                           :.MaER OF APPROVED
                                                                                ,IRST - YEAR POSITIONS
                                                                             R: TOTAL NIJM9   R OF'
                                                                                GRADUATES
    350
                                                                                F'RST - YEAR POSITIO
    300
                                                                                PER lOa GR UAiES

    200
     150
     1 C/'




                           Sourc e:   F'ifth Report to the   President and
                                      Congress on   theStatus of Health
                                      Personnel in the U. , March 1986
  But owig to an increasing number of States requirng that an applicant complete a residency
  for licensure (and residencies are limited , as shown in figure III) and that they pass whatever
  exam the State recognizes, the mobilty of podiatrsts remains restrcted.

  ADEQUACY QF BACKGROUND INFORMATION

 Durig the early 1980s, State medcaJ boards were severely shaken by scandas involving
 frudulent crentials from twoCarbbean medical schools and by breaches of security on
 some medical licensure examnations. State podatr boards have not had to face
                                                                                comparble
 developments. Yet among may of them , panicularly those in the larger States and in States
 where podatr is handled by the medical boar, there seems to be a growing uneasiness about
 the quality of the background information provided to boars on applicants for
                                                                                  licensur,
 whether these applicants ar aleady licensed in another State or seeking their initial license.
 The validity of any crentials cited in an application is not seen as a problem
                                                                                , as much as the
 completeness of the information bearg on an applicant s professional conduct. The follow­
 ing comment frm a State boar representative ilustrtes this concern vividly:

        States sometimes lie when it comes to inquirg about applicants. I think some-
       ties a  State may really want to get rid of a bad practitioner, so they wi
                                                                                  probab­
       ly not give the whole picture about the applicant.

 Boards usually now reuir more extensive documentation with an application for licensure.
 Yet the proessing ties for applications have incred signifcantly in only 20 percent of the
 States. Two States, in fact, repon that the processing time has decrased mainly beause of ad­
ministrtive improvements. Seventy percent of those States reponing incrases cite more in-
depth background checks as the cause for the delay. The remaining 30 percent cite an
in the number of applicants as the reason for the longer processing time.            incrase

About 10 percent of the State boar repon that in the past 3 to 4 years they have implemented
changes that call for more detailed informtion on application forms and/or more vigorous ef­
fons to veriy the crentials of applicants. Other boars     ar also planning changes of this
son. Most of the changes involve the revision of applications to provide a fuller accounting of
the applicants ' past and to reuir disclosure of any disciplinar
                                                                 problems they may have had.
To limit opponunities for submitting altere records, a number of States now
                                                                              reuir that col­
leges send trscripts and other States send any licensing and disciplinar history   diectl y to
the board. A few boards underte more diligent verification through telephone inquires,
fingerprinting, and even Federal Bureau of Investigation checks.

Overall, however, the scope of these changes is limited and, many board
                                                                           offcials suggest, in­
adequate. The major reason cited by the boards for their failure to take more
                                                                                substatial ac­
tion is the lack of suffcient resources. Their staffs are simply inadequate to do a job properly.
The result, a significant number of boards repon, is that the backgrunds of many individuals
are checked superfcially, if at all , and the boards are compelled to rely too heavily on the as­
sumption that applicants are tellng the trth. They add that this situation seems to present a
parcular vulnerability in the case of applicants who are already licensed in other States.
A second factor that inhibits more effective board action in reviewing applicant backgrounds
is the widely perceived inadequacy of the national disciplinar action clearnghouses main­
taned by the Federation of Podatrc Medical Boards (FPMB) and the National Clearnghouse
on Licensure, Enforcement and Regulation (CLEAR). Although 60 percent of the boards
                                                          18 the majority of them feel that their
repon that they use one or both of these clearnghouses,
usefulness is limited. Prarly, this is due to the fact that neither of them comes close to
having a complete listing of all the disciplinar actions taen by the 51 States. Other reasons
bear on the insuffcient data held by the clearnghouses on podatrsts who have ben dis­
ciplined and the time involved in sending data to the boars. Severa States note, however
that the regular report sent to the boards by FPMB are helpful.

Neverteless, the unease generated   by the limitations of clearnghouses is especialy sig­
nificant in States that endorse previously held licenses and thus are more liely to be review­
ing applications from podatrsts licensed in other States. But it is felt to a considerable degree
in most other States as well. Expressing much frstration over the deficiencies of the current
system, one board representative told us, " We need all the help we can . get
                                            DISCIPLINE

  Over the years, the authority of State boards to discipline podiatrsts has
                                                                               ben increasing
  grdualy, with respect to bOth the grounds upon which they can .take disciplinar action and
  the typ of action they can take. During the past 3 to 4 years, about 35 percent of the boards
  have experienced some legislative or regulatory change concerning their
                                                                              disciplinar
  authority, the- founhs of it increasing that authority and none of it serving to decrease it.
  Most often , the changes have involved an expansion of their range of
                                                                          disciplinar actions.
 As of 1984 , the latest year for which aggregate data ar available, all the boards had the power
 to discipline podatrsts by suspendig or revoking their license upon proof of a punishable
 violation. Other types of disciplinar actions
                                                that could be imposed were limited, however:
 19 had the authority to assess probations, 17 to issue reprimands, 13 to
 tice, 9 to impose censure, and 5 to impose fines of up to $1
                                                                          restrct poatrc prac­
                                                              00. Two States had the authority
 to requir a coure of education or training, and one could
 100 hours of public service.                                reuir a licensee to perform up to

 Since 1984 , these numbers have incrased, with more
                                                     States gaining a grater                 discipli­
 nar options.   Yet   may still lack a full complement of options as well as otherrange of
                                                                                   basic authori­
 ties, such as the power to issue subpoenas or to summarly suspend the license of a
 who poses a clear and present dager to the public.                                 podatrst

 INCIDENCE AND TYPE OF DISCIPLINARY ACTIONS

How may and wh at tye of disciplinar actions ar being
                                                            taen against podatrstS in the
United States? Although this question is basic, it is one we
                                                             leared could not be answered.
The existing information bases were too lited to provide even reasonable
                                                                            estiates.
Accordigly, in our discussions with representatives of the State boards, we asked them to in­
dicate the number and type of disciplinar actions imposed on podiatrsts during each of the
past 3 calendar year. We received the data from all 48 States with whom we were able to
speak. The result is an essentially complete picture of the extent and
                                                                     nature of
tions taken in 1984 , 1985, and 1986. The data provided by the State boards disciplinar ac­
in figu IV.                                                                 ar summarzed


During a period when the numbers of
                                         poatrsts steadily increasd and national concern about
the quality of health care grew, it is not surprising that the total number of
                                                                            disciplinar actions
taken against podiatrsts by State boards also
                                                incrased, by nearly 100 percent from 1984 to
1986. The figure rose from 84 actions in 1984 to 107 in 1985, an increase of almost 30 per­
cent, and reached 159 actions in 1986, a funher increase of about 50 percent.

Over this 3- year period, in stak contrast to dentists and chiropractors (subjects of the fIrst two
repons in this inspection), tier 1 actions--the more serious ones involving license revocation
suspension, or probation--regularly accounted for less than half of the
                                                                         disciplinar actions

taken by State boars,    and as   little as a third (figure V). For dentists and chiropractors such ac­
tions composed roughly tWo-thirds of al        disciplinar actions. Tier 2 actions, such as
reprimands and fines (designated in figure V as " Other ) represent no more than 44 percent of
total actions in anyone year. The tier 2 actions identified by board representatives            can be

broken down as-follows: 81 letters of reprimand, 73 consent agreements (which can include a
varety of stipulations agreed to and signed by the licensee), 5 decrees of censur, 2 restraining
orders or restrctions on practice, and 63 unspecifed " other " actions.


                                               FIGURE IV
       NUMBER AND TYPE OF DISCIPUNARY ACTIONS TAKEN BY
          STATE BOARDS OF PODIATRIC MEDICINE AGAINST
                    PODIATRISTS. 1984-1986
      110
      100                                                                                 I3 SUSPENSIONS

                                                                                              REVOCATIONS

                                                                                          IS PROBATIONS

                                                                                          .JTHER




                                                1985 .                      1986
                                               FIGURE V

            PERCENT DISTRIBUTION OF DISCIPUNARY ACTIONS
             TAKEN AGAINST PODIATRISTS BY STATE BOARDS,
                    BY TYPE OF ACTION. 1984-1986
                                                         REV, =-6%
                                                              SUS, = 19%




                                         OTH. =56%

                                                   1984


                     PROS, = 16%                                     PROB, = 13% REV. = 12%
                                REV. =9%
                                    SUS. _7?                                           SUS"0'


             OTH. =68%                                               OiH = 65

                         1985                                                   1986


                             Sources: State Boards as Reported to the
                                         Offic e of Inspec tor   General , 1987
                                           ::.


When the perfoffance of State boards of podiatr is compared to that of State medical , dental
and chiropractic boards, some notable differences emerge concerning both the incidence and
type of disciplinar actions. First, the podiatr boards have been fa, more active than the
other th    in disciplining members of the profession. In 1985, for example, poiatr boards
disciplined 9. 7 podi trsts per 1, 00 licensees, dentists 5.4 per 1 00, chirpractors 5, , and
medical doctors 4. 2. 0

A second noticeable difference among the four tys of boars involves contrsting trends in
the proportonate emphasis given to the more severe, tier 1 disciplinar actions. Although
such actions have been increasing as a share of all disciplinar actions taen by denta boards
against dentists, they have essentially remained constat for chiropractors (65 percent
average), and they ar declining for both medical doctors and podatrstS. For the latter, tier
actions composed 44 percent of all actions taen in 1984; by 1986 the figur had dropped to
35 percent after reaching a low of 32 percent the year before. Similarly, for medcal doctors,
tier 1 actions dropped from 63 percent of total actions in 1982 to 53 percent in 1985.

From 1984 to 1986 there was a steady decrease in probations as a percentage of al actions
taken by the State podatr boards, and the percentage of suspensions dropped by almost 50
percent from 1984 to 1986 after reaching a low of 7 percent of all actions in 1985. Overall,
tier 1 actions accounted for only 36 percent, or 126 of the 350 total actions over the 3- year
period. It is imponant to note, however, that from 1984 to 1986 the percentage of revocations-
 the most serious action possible-- imposed Qn podiatrsts by State boards doubled. They rose
frm 6 percent of total actions in 1984 to 12 percent in 1986.
The varations in disciplinar performance ar             no   less apparnt when State poatr boards
compard among themselves rather than with the other               th    boars. Over a . 3- year period, for
instance, two State boars, Arizona and Florida, disciplined poatrsts at a rate that far ex­
cees that of any other board. In fact, Florida' s alone accounted for about 26 percent of all dis­
ciplinar actions taen by State podatr boars in the United States in 1986, and 17 percent in
1984 and 1985.



                                                 FIGURE VI
                     PERCENT DISTRIBUTION OF ACTIVE PODIATRISTS
                    (1987) AND OF REPORTED DISCIPLINARY ACTIONS
                       (1984-1986). BY SIZE RANKING OF STATES




          lRG-3..
                                        X-SM_"                 LRG. =32'7            X-SM. = 1 70

                                 X-LRG, = 3570                                    X-LRG, =33'7
                     Ac tive POdiatrists                      Reported Disciplinary Actions

                             Sources: Fifth Report to the President and
                              Congress on the Status of He:Jlth Personnel in
                               the U.   S. and State BoardS as Reported to OIG

Slight varations among the boars ar also apparent when their rate of disciplinary activity is
corrlated with the varable of size of poiatrst population in a State. Since year-to- year fluc­
tuations in this regard may be misleading, we have aggregated and analyzed the data over the
  year period from 1984 to 1986 (see figure VI above).

Out of this comparative examiation, it can be seen that the most significant varation existed
in States classifed as medium-sized. While those States had 24 percent of active podiatrsts,
they were responsible for 30 percent of all disciplinar actions from 1984 to 1986. Thee of
the other four categories--small , large, and extra large- prouced only slightly fewer actions in
relation to the number of podatrsts in those aras. When compared with respect to regional
divisions, however, the results ar quite different (figue VII.

                                           FIGURE VII

                 PERCENT DISTRIBUTION OF ACTIVE PODIATRISTS
                (1987) AND OF REPORTED DISCIPLINARY ACTIONS
                       (1984-1986). BY CENSUS REGION

                                   NORTHEAST=36             MIDWEST=9%



        MIDWEST.. 26%
                                                        SOUTH=34%


                SOUTH.. 20

                   Active Podiatrists                     Reported Disciplinary Actions



                                     Fifth Report to the President and
                             Sourc es:
                              Congress on the Status of Health Personnel and
                              State Boards of Podiatry as reported to OIG



The rate of disciplinar action was highest in the South and lowest in the Midwest. Although
the Southern States had about 20 percent of the active poatrsts licensed in the United States,
 they were responsible for 34 percent of the reponed disciplinar     actions. Likewise, for   the
 Midwestern States, the figures were 26 percent and 9 percent.

 Why was the rate of disciplinar action higher in some States than in others? Was it because
 practicing podiatrsts in some States were more incompetent, dishonest, or unprofessional than
 in Others? . Or because levels of board commitment to take action vared? Or because boards
 were constrained by inadequate authority or insuffcient resources? Each of these factors may
 be explanatory to some extent, but, in the case of one-- insufficient resoures--we have some
 data to suggest an association.
  We found that of the 10 State boards with annual renewal fees of $25 or less in 1987
                                                                                           , 5 had no
  actions at al and another fell well below the median rate of disciplinar actions of
  boards. 21 Additionally, if the comparson is extended to States with renewal fees of $50 or
                                                                                         the  State

  less, we find 11 States with no actions ard 5 more below the median rate; 3 of the 5 had less
 than half the medan rate for disciplinar actions. At the other end
                                                                      , the association , although
 not as strong, was nevenheless significant. Of the 18 States with annual renewal fees of $75
 or more, 7 had a 3- year rate below the median , with 3 that took no disciplinar actions
                                                                                              at all;
 and of the 11 States that fell above the median rate of diciplinar actions, 3 were within one
 percentage point of it And so we found that although a comparatively high renewal fee is no
 guartee in itself of a higher level of disciplinar activity, it seems to have helped increase
 the activity of poatr boards in a number of States.

 Finaly, it is imponat to recognize that State boards are not the only forum for disciplining
 podatrsts. Another, as note in appendi I, is the Office of Inspector General (OIG), which
 can impose sanctions on professionals who have commtte fraud or abuse.
 years, OYG sanctions against podatrsts have averaged about 3
                                                                                  Durg the past 5
                                                              percent of al the OIG sanc­
 tions imposed, ragig     frm 1 percent in FY 1985 to 5.4 percent in FY 1982.
 TYPE OF VIOLATION

Unlike our previous studies of medcal doctors and of dentists and chiropractors, this study
found there is no one   ty   of violation that stoo out among the bases for disciplinar actions
taen by State podiatr boards. Of the 33 States that reponed having
                                                                         taen at least one dis­
ciplinar action frm 1984 to 1986, relatively equal numbers said that clinical misjudgment,
unprofessional conduct, self-abuse of alcohol or drgs, inappropriate prescrption
                                                                                     wrting, and
violations of advertsing laws were their primar causes for disciplining
                                                                           poatrsts. Six of the
33 States said they could not identify any primar cause for discipline because    they took too
few actions. One large State did repon that for the period from 1984 to 1986, "
                                                                                  The majority
of our disciplinar actions (total 80 actions) have
                                                    ben for por clinical performce or inade­
quate clinical judgment. " Of these 80 disciplinar actions, 69 were only the less severe tier 2
actions, and of the 11 tier 1 actions, 4 were revocations, and the other 7 were probations.

 Only one-third of the States said that they had disciplied at least one
                                                                          podatrst because of
 poor clinical performance over the past 3 to 4 year. Of the two-thirds that had not, the
reasons most often given were much the same as those cited by medical doctors in our earlier
 study: (1) the complexity, length, and cost of such cases, (2) the substantial
required, and (3) the considerable varation in what constitutes acceptable practice. A prof
                                                                                 buren of
                                                                                            sig­
nificant number of board offcials expressed the belief that one
                                                                   reason that helps account for
the small !'umber of actions based on poor clinical performance is that the
                                                                               oJrJ boy network
within the State podiatrc societies " takes care of their own " before a State board ever  hears of
the problem. Indeed, some board offcials said they prefer it this way because it lessens the
burden on their shoulders. Given their limited stafs and resources, the
                                                                           bows felt
not hun the profession if such issues ar left up to the State societies to resolve. that it does
societies fail , then the board wil hear about it and disciplinary proceedings can If the
                                                                                     tae place.
Some of the States to whom we spoke also identified continuing education effons as a factor
in keeping cases of poor clinical perfomlance to a minimum. According to a Council of State
Governments report, 22 33 States in 1986 requird some continuing education for license
renewal, with an average reuirement of 19.4 hour annually.

Thus far, the most visible and consequential of the early intervention efforts intended to cor­
rect problems before they lead to violations ar the rehabilitation progras dited to im­
paid podatrsts. In our review, two-thirds of the boards indicated that such progrs were
available. They were most often admistered by the State medcal societies, but podatrsts
had access to them. In a smal number of States, the programs were' available under the
auspices of the board itself. In a few other States, Massachusetts, for instace, the programs
were run by a peer review commttee within the State podatrc medical society.

SOURCE OF DISCIPLINARY ACTIONS

Complaints frm consumers were the major soure of disciplinar actions against podatrsts
in almost tWo-thirds of the States. This pattern held regardless of a State s size or region. In
contrst, few disciplinar actions appear to have been based on referrls from State podatr
societies. No State cited the societies as the most common soure of complaints, and only tWo
cited them as even the second most common source. Again , the opinion that State societies
 take car of their own " unless there is a serious problem was widely expressed by the board
representatives with whom we spoke.

Individual practicing poatrsts have been among the least frequent sources of refeITal.
Recently, though, their tendency to refer cases of possible violations to the State boar seems
to be on the rise. Two factors ar seen as providing the impetus for this increase: mandatory
reponing laws. which exist in a number of States, and the increasingly competitive environ­
ment characterizig the practice of podatrc medicine. A third factor may well become more
prominent in the near future. The language in the Health Car Quality Improvement Act of
1986 that extends immunity to practitioners who make refeITs for goo cause may increase
the number of dict refeITals by poatrsts.

More than hal of the States have laws or regulations calling for other agencies to repon cases
involvig possible violations to the poatr boards. Most often these laws reuire hospitals
and insurace companies to repon malpractice cases, but some States have extended these
laws to require practitioners as well as State podiatr associations to repon possible violations
to the board. Even when these types of provisions exist, however, many cases stil go un-
reponed. As one board offcial put it, "       ll never be able to catch all the ones that fall
through the cracks. It' s impossible.

THE ADMINISTRATIVE PROCESS

Over the past 3 to 4 years there seem to have been measurable improvements in the backlog of
cases awaiting investigation. Although five States cited an increase in their backlogs during
   this.. period
             (most often attbutable to a lack of staf), mor States said there has been a
  decrease and several others stated they have no backlog of cases that need to be investigated,

  Board representatives from 19 States reponed they had made changes in the
                                                                                 reent past with

  the intent of expediting their boards ' investigatory and review activities.
  these involved increases in investigative stafng, appointment of a           More than half of
                                                                         hearng officer to help with
  complaits, and creation of new investigative offces.
                                                             In one State, where there is no backlog
  and there have been no recent changes, a board offcial told us, "
                                                                    We don t nee to make any
  changes. There hasn t been anything to expedite.


  Another comment-- It taes alost an act of God to get a restraining order to protect con­
  sumers from bad practitioners --came from a board offcial in one
 largest number of practicing podiatrsts.
                                                                     of the States with the
                                          It typified the frstrtion expressed by many offcials
 with whom we spoke. In about half the States, board represen
                                                                  tives told us that there are
 weakesses in the disciplinar process and that there
                                                        ar constrints that hinder improvements
 in it. The most often cited weakesses were underfundig and
                                                                 lack of appropriate staf to ade­
 quately address discipline matters.

 Much of the frustration expressed also resides in the delays associated with due
 tions. A representative in                                                         proess protec­
                              one State noted that such delays were largely responsible for the fact
 that it taes a little over two and a hal years to proess a
                                                             case, with the podatrst tyically
 continuing to practice durng that time. But a board official in another State   viewed the
 tion from a broader perspective, commenting as follows:                                     sitUa-


          Some might see weaknesses, but I view the discipline process as one that is fully
        endowed with protections for the licensee; this sometimes slows things down, but
        it is palatable to other authorities such as the couns, attorneys, civil
        etc.
                                                                                 libertans,

INFORMATION SHARING

Over 85 percent (41) of the States regularly send notice of
                                                            disciplinar actions to a national
clearnghouse. Thirt indicated that they send the
                                                   infonntion to the clearghouse operated
by the Federation of Podiatrc Medical Boars (FPMB)
                                                         only; 9 send notice of actions to the
Clearnghouse on Licensure, Enforcement and Regulation (CLEAR); and 4
to both FPMB and CLEAR. In addition, a small number of States that have States     send nOtice
                                                                              composite boards
also send nOtice of actions to the Federation of State Medical
heard in our review indicate that confidence in the FPMB andBoars.CLEARThe   comments we

                                                                         clearnghouses is lack­
ing, mainly because of the incompleteness of their data bases. Most States, although they
send notice of acrirj ls to the clearnghouses, prefer to rely on communication among themsel­
ves to obtain accurate and timely information.

Many factors severely limit the effectiveness of the two clearnghouses.
do nOt report on licensure denials or on informal actions.
                                                                        State boards typically
                                                        Many do not report in a timely man­
ner, sometimes waiting for months before sending the data to a clearinghouse. When they do
 repon, the data provided on disciplined podiatrsts
                                                      ar limited, often not including the name of
 their podatrc college, their social securty number, or even their date of
                                                                            bir. And, while
 their report do specify the type of disciplinar action taen , they reflect widespread inconsis­
 tencies in how the underlying violations ar described. and, indeed, on the type
                                                                                   of disciplinar
 action imposed for a paricular type of violation. Within their individual
                                                                             States, only 11
 boards told us they have a clearly defined set of guidelines for detenning
                                                                               the appropriate
 level of disciplinar action.

The executive dirctor of a State podiatr   board   commented as follows about the new national
disciplinary action data bank to be established under P.
                                                       L. 99- 660, the Health Cae Quality Im­
provement Act of 1986:

       This clearnghouse must be the best kept secrt anywhere. We ar
                                                                           sitting on the edge
      of our chairs waiting to see what the regulations will require us to do.
                                                                                And the
      clearnghouse wil be of limited use if past actions ar not included in the data bank.

Many other board offcials in other States voiced simiar    concerns.

During our discussions, held in the Fall of 1987, many State boar offcials
                                                                                 were unawar that
podiatrsts' would be included in this data bank as a result of P. L. 100- 93, the Medcar
                                                                                          and
Medicaid Patient and Progrm s Prtection Act of 1987. When told that the reportng require­
ments would apply to podiatrsts, most were generally enthusiastic.

Among the specifically noted concerns rased about the prospetive national
                                                                           clearghouse,
those expressing the need for a common language for violations and
                                                                   disciplinar actions were
prominent. Among the other questions rased were the followig:

     How accurate wil the data be? What steps wil be taen to ensure its
                                                                             accurcy?
     Wil the confidentiality of the data be maintaned? Might State laws assurng
     confidentiality be compromised?

     How quickly wil the data be accessible? What wil be done to ensure that the system
     does not bog down because of administrative overload?

     How extensive wil the reponing demands placed on State podiatr boars be? Wil all
     the boards be able to meet these demands? Wil there be any Federal financial help?

     Wil the national data banks produce aggregate data summares that wil
                                                                               facilitate an
     understanding of trends and help shape risk management effons?

     \Vil podiatry be associated withmedicine in a way that might be to the disadvantage of
     the profession? Will the uniqueness of its practice setting be recognized?
Finally, it is imponant to reognize that the information sharng that occurs within a State is
                                                                                         , some­
also of signifcance. In this sphere, pod atr boards ar becoming somewhat more open
times because of legislative mandate, in disseminating information within the State on discipli­
nar actions n against podiatrsts. The vehicle for this dissemination is most often a
newsletter sent to the State- podatr society, State Medicaid Fraud Control Units, State in­
surance agencies, and other State or local entities. In only a relatively few States is an active
effon made to shar the information with the genera public through      general cirulation

newspapers or other popular media outlets.
                                     RECOMMENDATIONS


Given the situation descrbed in the previous pages, our centr        recommendation     is the folIow­
109:

       State governments should ensure that State podatr boards have sufficient resources to
       car out their responsibilties effectively.
In most States, this is not now the case. In both the licensur      discipline realms, resource
                                                                   and
limitations (mainly staf limitations) ar undennning the capacity of the boards to do their
jobs. With the fonhcoming implementation of the national data ban and the additional
responsibilities it wil place on the State boards, the strns generated by the curnt resource
 shortall are likely to become even grater.

Since most of the revenue of the State boars derives from renewal fees charged to practicing
podatrsts. they are probably the best source for generatig additional revenue. As noted ear­
lier, the medan annual renewal fee in 1987 was only $40.

In addition to our centr recommendation concerning resources, we have a number of more
specific ones diected to the State podatt boards, the Federation of Podiatrc Medcal
Boards, the American Podiatrc Medical Association, and the U. S. Public Health Service.

Stal Podiatry   Boards

In many States, the boards must have a fuller rage of disciplinar options available to them
and a greater degree of enforcement authority; it is pancularly imponant that they be able to
issue subpoenas and be able to suspend immediately the license of a podatrst who poses
clear and present dager to the public. But even more importt is that they car out existing
enforcement authorities more rigorously. This means that they must not only react swiftly and
effectively to complaints and referrs but also assume a more active investigatory role of their
own.

Such a strngthening is imponant primarly because it wil help boards protect the public from
those few podiatrsts who perform in an unprofessional, incompetent, or fraudulent manner.
Not to be overlooked, however, is that it wil also suppon the case for lic nsur by credentials,
If State boards have more confidence in one another s enforcement and discipline effons, they
wil have all the more reason to enact policies that allow for licensure by credentials.


       State podiatr boards should join together to establish and use a high- quality     national
       c1inicallicensure examination.

Among State podiatr      board   offcials, this is a very sensitive topic because it involves States
rights and prerogatives. Yet, from a 51- State    perspective, the current situation--with the
presence of several separate State clinical examinations, a small number of States using one
           ::   ' -- :~
              :!;'
            \,'
              .,          . (j          :.,.,




exam--an ! q\me State:- without any clinical examination at all-- has become increasingly
counter- pwductive. It restrcts mobility of practicing podatrsts. It suggestS that the profes­
sional C0     i1unity cannOt agree on the miimum level of knowledge and skills necessar to
practice pr,di a try. It results in a duplication of resources devoted ,to testing. And it divens
State board attention and resources that might otherwise be devoted to enforcement and dis­
cipline a.:ti\"itie      i1i:i professional boards have successfully established a national clinical
licemu ;: examination; it would appear to be constrctive for State podatr boards to do the
same.

       State podatrc licensing boards should shore-up their creentials verication
      pT(x: duTes.


A num         boars have aleady moved in this diretion. But, as many State boar offcials
                 :,r


indicate, r;, ;; must be done in terms of the extent and type of (1) information requested of
licemu      ;,licant and (2) verification undenaken by board offcials. Without such addition­
al safeguards, many boarc' wil reman too vulnerable to irgularties that could result in
some undeserving indi\'       s receiving a poiatr license and in an undermining of public
confidence in the entire licensure process.

Federatiun of Podiatric Medical Boards

For more than a half-centur, the Federation of Podatrc Medcal Boards (FMB) has
provided : forum for State podatr board officials to addrss common concerns and chan
directions that ar in their mutual interest. In the last 2 year, these officials have used the
FPMB to help develop a national clearnghouse of disciplinar actions and to work on many
other pre'     that have benefited podiatrc medicine. It is important, we feel, for the FPMB
to supplement these actions by taing initiatives that will help individual Suite boards move in
the directions recommended above. Given that the FPMB recently reeived a grt frm the
  S. p,.                         ?n'ice to more fully develop its clearnghouse on disciplinar actions and
that many State boards must clearly improve their enforcement and djsciplinar effons,
feel it i f' _. ::Jly imponat for FPMB to exert leadership that wil encourge and support
such effoI1s, Our specific recommendations follow:

      The FPMB, in consultation with the American Podiatrc Medical Association, should
           ".. g\::d~lines for State podiatr practice acts.

As nOk        ;Iier the Project 200 Commission formed by the APMA called for the estab­
lishment 0: a uniform podiatrc practice act. Such an act or set of guidelines could promore
greater S tate-to- State uniformity not only in the definition of podiatrc practice but also in the
ground l::' ' ,., which disciplinary action might be taen and the proedures for enforcement.
In this re      :trd, it could serve as a useful reference point for State reforms, much as A                       Guide to
the ES5Cn:iuls of a           Modem Medical Practice Act,                        issued by the Federation of State Medical
Boards, d0 " for Stat medical boards.
       The FPMB should accumulate and disseminate, on a regular basis, changes in State
       practice acts and regulations.

 Infonntion dissemination   of this kind would be extremely useful to the State boars. It
 would enable them to stay more fully abreast of developments in other States and to assess
 what if any signifca,nce such developments have for their own States. It would serve as a
 valuable, more comprehensive supplement to the interaction that now occurs by word of
 mouth.

       The FPMB should identify and disseminate to State boards the most effective
       techniques of crdential verification.

Because this is not now a crsis area, it is an easy one to overlook. Yet it does involve a poten­
tial dager that should be addrssed. The FPMB can help individual boards in this regar by
identiying and distrbuting infonnation about some of the best practices
                                                                            underten by mem­
ber boards.

The American Podiatric Medical Association

      The American Podatrc Medical Association (APMA) should encourge more
      extensive and effective interaction between its State societies and State podatr boards.

Such action is imponant because most State societies make few referrls to State
                                                                                   podatr
boards and because the societies ' own peer review effons are often quite limited.
                                                                                   There is a
need to strngten the per review system , to identify practice that is substadad, and
                                                                                       to tae
steps to help these practitioners improve their technical skils or behavior.


The Public Health Service



      The Public Health Service (PHS) should assist the FPMB to extend and improve its
      technical assistance and infonnation dissemination activities.

The PHS has long provided such assistance to professional boies, and its reent
                                                                                   grt   to the
Federation is a. very important and .positive step in providing much ne ded assistace to the
                                                                                              na­
tional body that is most closely associated with the individual State licensing boards. Now is
an opponune time to extend whatever suppon is possible to FPMB to help it play an even
more effective leadership role vis a vis its member boars. This is parcularly important with
respect to the enforcement and discipline aras, where the need for such leadership is
compellng.
                                                      APPENDIX I



 NOTES

         S. Deparent of Health and Human Services, Public Health Service,   Fifh Report to
      the President and Congress on the StatU of Health Personnel in the United States March
      1986, p. 71.

     Here, and elsewhere in the repon, unless otherwise noted, the data are derived from our
     surey of 48 of the 50 States. See appendix III.

     Data obtaed by phone from the Health Car Financing Admnistrtion.

     Fifh Report to      the President,      p. 7­

     Data frm the American Podatrc Medical                         Association as presented in the         Fifh Report to,
     the President,     p. 18.



     ELM Servces, Inc., for the           American Podiatrc Medical Association,
                                                                                                      Economics of Foot
     Care,     p. 18.


     Fifh Report to      the President,      p. 7­

     Data from the Council on Podiatrc Medical Education as presented in the                               Fifh Report to
     the President, 
   p. 7-

     Data from the American Association of Colleges of Podatrc                                 Medicine.

10. Fifh Reporr to       the President p. 7­

11. Prepard remarkes            before the House of Dele gates of the American Podatrc Medcal
    Association , 1986.

12. The Council of       State Governments, State Credentialng of the Health Occupations and
    Professions, pp. 174- 196.


13. Ibid.

14. We developed the $2 milion estimate as follows. For each State we' multiplied the                             tOtal
    number of licensed podiatrsts in 1987 by the renewal fee for that year. That resulted in
    a tota of 1.35 mi11on. We then assumed that renewal fees accounted for two-thirds of
    overall fee income from podiatrsts, and, accordingly, added one-third to the above needed
    tOtal. This resulted in a new total of $2 mi11on.
15.   State Credentialing of the Health Occupations and Professions, pp. 174- 196.

16.   Benjamin Shim berg,                Occupational Licensing: A Public Perspective,         1982, p. 66.

17.   Data ar a combinations of                    information obtained in our survey of State licensing boards
      and data contained in the CSG repon, 
                 Slate Credentialing of the Health Occupations and
      Professions,          pp. 174- 196.


18.   Of the 29 boards that indicated they regularly check with a clearnghouse when a person
      applies for licensure, 18 said they use FPMB only, 7 use CLEAR only, and 4 nOted that
      they use bOth.



19.   The national data bank now being established under title IV of the Health Care Quality
      Improvement Act of 1986 wil provide a basis for answering this question in the years
      ahead.

20.   See our previous inspection report,                         Medical Licensure and Discipline: An Ovenliew
      State Licensure and Discipline of Denrists, 
                    and  State licensure and Discipline of
      Chiropractors,            for more detaled information.

21.    Using 1985 as the stadard, we found that the medan rate at which podatrsts                          were
       disciplined by State boards was 13. 36 per 1, 00 licensees.

22.    State Credentialing of the Health Occupations and Professions,
                                                                                           pp. 174- 196.
                                             APPENDIX II

   BACKGROUND

   The licensure and discipline of health care professionals is a traditional function of State
   Government. It dates back to the pioneering effons of the American colonies in the 1600'
   But it did not gain permanence until the late 1800'
                                                       s, when Texas passed the fIrst modern medi­
   cal practice act (1873) and the U. S. Supreme Coun upheld West Virginia
   cise of State police powers (1889).                                          s act as a valid exer­

  In recognition of this traditional State role, Congrss, when it
  Medicaid progrs in 1965, left it to the States to               established the Medicar and
                                                      determne whether physicians and Other
  health car professionals were legaly authorize to
                                                       panicipate in these progrs. Sub­
  sequently, Congrss has empowered HHS and its
                                                     preecessor   (HW) to imposethese
  those professionals (and other provider groups) who have abused or defrauded      sanctions on
  progrs. However, the Federal Government has continued to depend on the States to serve
  as the disciplining agent for transgrssions that do not
  Medicaid progrs.
                                                          dirctly relate to the Medcare or

 Thus, States have been providing an imponant front line of
                                                            prOtection for beneficiares

 these two federaly funded programs. This protection
                                                      has been at no cost to the Federa
 Government and at only minimal cost to State Government. Nearly all the costs have been
 covere by licensure fees imposed on the health
                                                car professionals.
 As Medcar and Medicaid expenditures have
                                               grwn to a point where they now account for
 more than one- fourt of U. S. health care expenditures, Federal interest in the effectiveness of
 State licensure and discipline practices has increased. For the most pan, this
est has focused on those practices concerning medical doctors. In essence thisheightening   inter­
                                                                                is because they
are the most prominent of the health care professionals and because they account for a larger
share of Medicare and Medicaid expenditurs than any of
                                                          the other
serious concerns about the adequacy of State medical licensure      groups. More
                                                                and discipline      specifically,
                                                                               practices were
raised by General Accounting Offce repons, meda
fraudulent medical credentials frm two
                                                    investigations, and scandas involving
                                        Cabbean medical schools.
Accordingly, in 1985 and 1986, the Offce of Inspector
                                                         General (OIG) conducted an inspec­
tion examining the activities of State medical boards. Based
boards and telephone discussions with the executive directorsprimarly
                                                                of       on visits to 14 State
                                                                   anOther
sought to provide an overview of the major developments and issues facing  10, the inspections
                                                                              the boards.
final repon , issued in June 1986, received widespread publicity and helped generate        The
                                                                                        reforms
r,) improve the effectiveness of State medical boards, panicularly with respect to.
nar pracrices.                                                                      their discipli-

Given the positive response and effects of that inspection
                                                           , the
directed to other health care professionals eligible for MedicareDIG   decided that
                                                                    or Medicaid     a similar one
                                                                                reimbursement
       would also be warnted: For these Other professionals no less than for medical doctors
       licensur and discipline boards offer a vital front line of protection for the         , State
                                                                                  beneficiar.
       We chose dentists, podatrsts, chiropractors, and optometrsts as
                                                                       1i focus because , like medical
       doctors, they ar dirct care professionals who have diagnosing and   prescribing respon­
       sibilties, who can receive dict Medicare reimbursement
       presence on the health care scene. Dentists, podatrsts , and who, overal , represent a major
                                                              , chiropractors
       together with doctors of medicine and osteopathy are the  six groups of, and optometrsts
                                                                                health care profes­
       sionals defined as "physicians " under Medicare law.

    Recognizing the value of obtaining a better national picture of the
    and other health care professions, HHS (through the Public Health licensur   activitiesaof3­these
                                                                        Service) awarded
   contrt in July 1984 to the Council of State Governments (CSG) and the National                year
   ghouse on Licensure Enforcement and Regulation (CLEAR) to develop a compositeClearn­    State-
   State infonntion system on the crentialng of                                                    by-
                                                     health professions. The project generates
   informational repons on the varous professions, drawing primarly on State practice
   State boar regulations. The report present data                                         acts and
  as the organizational pattern of the State boards, the parte tables that address such matters
                                                      in s

                                                         administrtive and
  of the boards, the types of ex inations required, and the fees imposed.enforcement
                                                                              Overal
                                                                                          functions
  tive information provided focuses more on licensing than on                        , the descrip­
  and CLAR have published repons on each of the four groups to bedisciplinar activity.  The CSG
                                                                         addrssed in this
  tion--chiropractors (1986),
                               poatrsts (1986), dentists (1987), and optometrsts (1987).inspec-
 The CLEAR, whiCh is composed of State
                                            offcials involved with occupational licensing and

 regulation issues, also runs the National Disc
                                                plinar Infonnation System (NDIS). This is an
 interstate service that provides parcipating
                                              State agencies with bimonthly repons on discipli­
 nar actions taken against licensed professionals  in a number of professional disciplines. Den­
 tists, podatrsts, chirpractors, and optometrsts
                                                  ar among the occupation groups included in
 the system. The disciplinar actions taken
                                             agaist these and other groups
                                                                           ar sent to NDIS on
 a voluntar basis and at this point involve only 32 States. The Federation of State Medical
 Boards operates a similar but more detailed and complete system that focuses on
 actions taen against medical doctors.                                           disciplinar

Two reent       congressional actions provide an imponant stimulus
data on disciplinar
                                                                       towar the funer sharng of
                        actions. First of all , the Health Care Quality Improvement Act,
(PL. 99- 660), passed in 1986, calls for the establishment of a national data bank to be run by
the HHS Secretar (or a designee thereof). It stipulates that entities making malpractice
ments associated with the work of physicians and                                           pay­
                                                      Other licensed health care professionals
must repon peninent infonnation concerning those payments to
mandates the reportng of disciplinary and peer                      the data bank. Similarly,
                                                  review actions taken against medcal doctors,
osteopaths, and dentists. The infonnation maintained in the data bank is to be
                                                                                   available,
request, to State licensure and discipline boards, health care entities, attorneys who  filed aupon
malpractice complaint with a coun against a specific practitioner
records on themsel ves.
                                            , and individuals interested in
The second peninent congressional action (P. L. 100- 93) is the Medicare and Medicaid Patient
and Program Protection Act Passed in 1987, this legislation includes a provision that would
extend the national reponing responsibility of State licensure and, discipline boards to encom­
pass disciplinar actions taen against podiatrsts, chiropractors, optometrsts, and other
licensed health care practitioners.

Thus, on the basis of the authority provided by these two acts, State boards wil be able to
draw upon a national data ban to detennine if any disciplinar actions have been taken
against an applicant for licensure. It is expected that this data bank wil be operating in 1988.

Finaly, with respect to podatrsts, on whom this repon focuses, it is importt to add that
since 1985, the Federation of Podatrc Medical Boars (FMB) has operated a national
clearnghouse on disciplinar actions taen by State podatr boars. Fony State boards
members of the clearnghouse, but with widespread anticipation of the establishment of the na­
tional data ban , parcipation in the FPMB clearnghouse has dropped in 1987. The infonna­
tion in the FPMB clearnghouse is available to members upon wrtten request and over the
telephone. Those States that issue licenses on the basis of credentials have tended to be the
most active users.
                                                     APPENDIX II
      METHODOLOGICAL NOTES

      We held discussions with representatives from 48 State boards. (We were unable to speak
      with a representative from DC, WY, or 

                                                      TD. ) Usualy we
                                                                talked with the executive director of
      the board or with a chairman or Other member of the board.
                                                                   Our informed
      tion and discuss issues with a board representative who was well aim was toabout
                                                                                   obtai informa­
                                                                                       board ac­
      tiviities both at present and over the past 3 to 4 years.

  The major ara in which   we sought quantitative information from these officials concerned the
  disciplinar actions  taen by the boars against podatrsts in 1984
  asked for the number of fonnal actions taen and a                   , 1985, and 1986. Here, we
                                                        breakdown of the types of actions--desig-
  nated as revocation, suspension, probation
                                             , or other.
  All 48 of the boards with whom we spoke were able to provide us with the numbers of dis­
  ciplinar actions taen in each of the 3 years. We cannot confmn that the
  clusive or completely accurate. However                                  information is all- in-
                                         , we did strss that we sought all board
 actions against poatrsts and often checked back when we suspected there mightdisciplinar
                                                                                     be errors.
 The board officials, typically, were quite responsive in checking their
 the data in a timely fashion.                                           reords and providing



 In analyzing the differential perfonnance of the States in disciplining podiatrsts, we decided
 to aggregate the disciplinar data over the 3-
                                               year period. We felt that comparsons over only a
 1- or 2- year period would be of questionable value because of the
                                                                     distortons that might be as­

 sociated with year-to-year fluctuations.

In this context, we treated performance as a dependent
                                                          varable and considered two major
 dependent varables:    size and region. With respect to size, first of all                        in­
                                                                            , we identified the num­
ber of active
              poatrsts in each State and , then , using varance analysis, identifed five
of States differentiated on the basis of the number of active podiatrsts                       clusters
sociated States are as follows:                                                The clusters and  as-

(1)         extr small (AK, HI , ID , MS, MT, SD , and VT;
(2)         small (AL, AR , DE , KY, ME, NE, !\Tf, NM, NV
                                                           , OK, RI
(3)         medium (AZ, CO, CT, GA , lA , IN , KS, LA, MA, MD , SC, UT, and WV);
                                                                 , MN , MO , NC, OR, TN , VA , WA
            and WI);

(4)        large (FL, n., MI , NJ, OH, and TX); and extra large (CA
                                                                           ,N   and PA).


With respect to region , we used U. S. Bureau of the Census categorizations to identify four
regions of the countr. The categorizations and associated States are as follows:

(1)        Northeast        (CT ME, MA , NJ , NH , NY, PA , RI, and VT);
(2)   South (AL, AR, DE, DC, FL, GA, KY, LA, MD, MS, NC, OK, SC, TN, TX, VA , and
      WV);
(3)   Midwest (lA , n., IN. KS, MI , MN, MO, TE, ND, OH , SD , and WI); and
(4)   West (AK, AZ, CA, CO, HI, il, MT, NV, NM, OR , UT, WA , and 'NY).
                                  ). 





                                           APPENDIX IV

  COMMENTS ON THE DRAFT REPORT AND OIG RESPONSE

  Within the Deparent of Health and Human Services, we received comments on the draft
  repon from the Public Health Service and the Health Car Financing Administration. In addi­
  tion, we received comments from a number of organizations outside the deparment:
                                                                                         the
 Federation of Podiatrc Medical Boards (FPMB), the American Podiatrc Medical Association
 (APMA), the American Association of Colleges of Podatrc Medicine (AACPM), and the Na­
 tional Commssion for Health Cenifying Agencies (NCHCA). Their comments are contained
 below, in their entity. The 010 response to all comments foIIows.


 FPMB COM UENTS

 A few comments on the recommendations of the repon are in order; comments on disciplinar
 data reponing follow.



 Recommendations:

Page iI', National Clinical Licensure Examination

The Federation, the National Board of Podatrc Medical Examiers, and LOR Examnations
(State College, Pennsylvania) have formed a consortum to respond to a
                                                                           reuest for proposals
issued by the State of VIrginia relating to their licensing examination. Already, 15 States have
contrcted to deploy the " VlTginia Examination. If the podiatrlLGR consortum wins
                                                                                          the
competition , States wil have a direct role in the funher development of a licensing examina­
tion which is alrady a proven success.

Approximately 60% of the 1988 grduating class took the " VIrginia Examnation " durng the
last administrtion cycle. The podatrlLOR          consonium wil be able to promote the examina­
tion funher.

Page   i".   Guidelines for State Practice Acts

At the Federation Board of Directors ' meeting in August, the Board approved a motion to es­
tablish a subcommittee of the board to develop a model for State podiatrc medical practice
legislation. The committee has begun its work; h wil reference the recommendations of the
APMA " Project 2000" .repon as they pertain to the definition of practice and appropriate
education. It wil drw from the recommendations of existing State law models for other
professions (i.e., medicine, etc. We expect to present recommendations to our membership
in August , 1989 , at our Annual Meeting in Boston , on the 18th and 19th.
 Infonnation on Changes in State Practice Acts

 FPMB aleady has a librar of State laws and regulations relating to podatrc medical prac­
 tice, and we have an index for the compilation. We communicate regularly with State
 podiatrc medical   associations though our newsletter,   Federation News.

APMA/State Association Interaction with FPMB

At the August, 1988 meeting of the American Podiatrc Medical Association House of
Delegates, a resolution was adopted (1) designating the Federation as the centr disciplinar
repository for State licensing board actions, and (2) encourging APMA and its affiliates to
suppon the Federation s effons in data collection and handling.

Report Findings     Page      9 -   Last Paragraph

Since mid- 1987, the Federation has made drmatic improvements in its data collection and
reportng system. A new repon form, engineered in mid- 1988, enables States to summarze
their report while they meet all of the content reuirments set by law through PL 99- 660 and
PL 100- 93 in regard to data reportng.

In Januar, 1988, State boards .received copies of the " 1987 FPMB Year-end Repon, " with an
accompanying alphabetical index. The names of twenty-three persons whose licenses were
subjected to revocation, suspension, probation, (or other miscellaneous action) were listed; the
alphabetical index listed the names and dates of al of the more than two hundred actions
reponed to FPMB since 1982.

The repon generated so much comment that those boards that had not already sent in repon­
ing sheets and copies of findings of fact and wrtten orders, did so in Februar and Marh.
Consequently, a revised repon was issued in April, 1988; that repon listed 48 separate license
actions.

The Federation of State Medical Boards reponed 2, 302 disciplinar actions in 1986 (FSMB
 Federation Bulletin , Februar, 1988, p. 46). The 48 actions reponed by FPMB amount to
just less than one- half of one percent of the total number of podiatrsts nationwide (ap­
proximately 11, (0); the 2, 302 actions reponed by FSMB        so amount to just less than one
half of one percent of the total number of MD' s and DO' s nationwide (approximately
500, 00).

Since Januar, 1988, 25 case actions have been reponed to the FPMB data bank. We are
operating under a rule of thumb wherein if the number of new cases reponed exceed twenty
we wil produce a repon and circulate it to the State boards. We wil prod ce another year end
repon in Januar, 1989; we wil include alphabetical and date indices for al names
                                                                                 reponed to
the FPMB data bank at the same time. With the active fall months to come, we expect more
than fony case actions wiH appear on the 1988 year end repon.
                , "





     The FPMB disciplinar repons are issued to the State government staff assigned to the eleven
     combined medical/podiatrc licensing boards, and to the staff of
                                                                      the 41 free standing boards as
    well. Copies ar also provided to the presidentslchairs of these boards, the vice-chais,
    member (podatrst) secretaes, State legal staf                                              the
                                                      , and the podatrst members seated on the
    boards of mediCine in eight of the eleven States mentioned    above. We
    the conditions and terms for sharng this information with third pany ar just now exploring
                                                                           carers, and with the
    OIG as well. By the tie you receive this , we will have initiated communication     with Mr.
    James Patton in that regard. This information is ready now even as we
    boards for full panicipation in the Federal data bank programs mandatedprepar
                                                                               by PL our
                                                                                      99- State
    100- 63.                                                                            660 and


   On page 18 of your report, you mention that only eleven States are using a clearly defined set
   of " guidelines for determining the appropriate level of
                                                            boards, which are " Presumably, that
   figue relates to the eleven combined medical/podiatrcdisciplinar   action.

   with the " Guidebook on Medical Discipline                                 alady familar
                                                " developed by the Federation of State Medical
   Boards.

  This May, FPMB was awarded a purchase order to develop and implement (1) a nationwide
  standard disciplinar action
                               classification system, (2) guidelines for
  ing board disciplinar actions, and (3) a program to educate the        determing State licens­
  sification and guidelines. The first meeting of the FPMB Committeeboarsonin Classifcation
                                                                              the use of theand
                                                                                             clas­
  Disciplinar Guidelines took place
                                     in Washington, DC, September 9 and 10, and the project is
 well under way. A draft classification and guidelines
                                                       wil be available to State
 end of 1988, and final version guidelines wil be available in mid­              boars by the
                                                                     1989.
 You and your staff ar to . be commended for the excellent draft repon.
 have far-reaching impact on the profession and the public we all serve. The document
                                                                         It will promotewil
                                                                                         mean­
 ingful qualty assurance in a most constrctive way.


APMA COMMENTS

With regar to your letter of July 22, when you transmitted to the Association a
the report State Licensure and Discipline of PodiatrstS,                         drt copy

fon. Our compliments go to Dr. Mark Yessian
                                                         " I take this means to applaud that ef­
                                              , who directed a thorougr. and constrctive
repon.

For your added information and fies
                                      , I am enclosing a copy of APMA' Peer Review
Guidelines and Procedures Manual. 

                                       We hope you wil find this helpful in understanding the
function we perform in this critically imponant area.

You should also be aware that APMA has been
with the Federation of Podiatrc Medical Boards
                                               workig closely and wil continue to do so
                                                 as it seeks to extend and improve its technical
assistance and information dissemination activities. We have extended both time and resou­
  rces in suppon of the Federation to assure that it may play an effective role in helping to
  launch the national data ban established by Public Law 99- 660.

 We look forward to receiving your final repon.


 AACP f COMMENTS

 I requested the Deans of the Colleges of Podiatrc Medicine to review and comment on the
 draft copy of the " State Licensur and Discipline of Podiatrsts.

 The Deans think it is a useful document which comprehensively examnes a very sensitive
 subject. However, they have some concerns. They ar the

        (1)         potential misuse of aggregate disciplinar data on podatrsts by other
                    professions, although there is suppon for the development of a data base.

       This issue could be resolved during the design phase of the clearnghouse.

       (2)          constraints which are imposed upon podatrc physicians in moving from State
                    to State, parcularly as they relate to assuring adequate
                                                                             car to podatrc
                    patients in states where demand for foot car has increased.

       The seriousness of these constrnts                     fully explore before complet­
       ing the final report                   must be more



       (3)         absence of suffcient resources to enable State licensure boards to effectively
                   perform even their basic legaJ responsibilities as a licensing authority.

       The Depament of Health and Human Services, in collaboration with the State
       licensur boards, must identify sources of revenues to enable these
                                                                          boars to e?Cer-
       cise this authority.

Podatrc Medicine     is seriously exploring the introduction of a Pan III Clinical Examination
under the auspices of the National Board of Podatrc Medical Examiners
                                                                             that wil be avail­
able nationally for all podiatrc physicians.

This Association is pleased to note that the podiatrc licensing boards have been in the
forefront in adheri '1g to a code that insures quality health
                                                              car to all U. S. populations. FlJf this
reason , the AssOt iation believes that every effon should be made to continue this
service to the ndtion s public.
                                                                                       exemplar

Thank you for the opponunity to review and comment on the repon.
  NCHCA COMMENTS

 Thank you for providing the National Commission for Health Certifying Agencies (NCHCA)
 with an opportunity to comment on the drt report entitled " State Licensure and Discipline of
 Podiatrsts. " This drft report was well prepared and provides a goo summar
                                                                                of critical
 licensing issues affecting podatrsts.

  The National Commission for Health Cenifying Agencies is in agrement with the
                                                                                     recommen­
 dations made to improve the licensing of podatrsts. We ar panicularly
                                                                            concerned with the
 fmding that State podatr boards have insufficient resources to carry out their responsibilities
 effectively. The increasing costs and personnel demads involved in
                                                                       operating effective
 licensing progrs ar becoming a problem in many professions and consumers may
                                                                                        ultiate­
 ly suffer from this trnd. It is parcularly unfonunate since the public expects that State licen­
 sure effons wil " weed out incompetent practitioners " and conduct thorough and
 comprehensive disciplinar actions when' appropriate. Unfortunately, this expectation
                                                                                         appears
 to be the exception rather than the norm in many areas of professional licensing.

 The National Commssion for Health Cenifying Agencies suppons effons to improve public
 awareness of the appropriate means of dealing with incompetence in licensed professionals.
 Perhaps licensure fees could be incrasd to suppon incrased public information program
 about licensure and additional funds could also be used to improve the verification
 and provide incrased suppon for poatr boards.
                                                                                     proess

We alo strngly   support the concept of State podiatr boards joining together to establish and
use a high qualty, national c1inicallicensur examnation.

Our certfication progrms use national cenification examnations and this eliminates the
problem of practitioners having to deal with different requirements from one pan of the
countr to another. We appreciate the opponunity to comment on this draft repon and we
would like to receive a copy of the final repon.


PHS CO IMENTS

Licensure of Podiatrists

We agre that the National Practitioner Data Bank established under Public Law 99­
                                                                                     660 and

amended by Public Law 100- 93, when implemented, wil be useful to State boards in
of adverse action experiences of podiatrsts seeking licensure by credentials.
                                                                                       learing

Federation of Podiatric Medical Boards (Federation)

The three recommendations to the Federation ar goo, but may be unrealistic, because the
Federation has a very limited staff and, therefore, would be unable to comply adequately.
These recommendations caB for the Federation to develop guidelines for State
                                                                                podiatr prac­
   tice acts, accumulate and disseminate changes in State practice acts and regulations, and iden­
   tify and disseminate to State boards the most effective techniques of credential verification.

   Role of the American Association of Colleges of Podiatric Medicine (Association)

  We believe that there should be some reference in the report to the Association and the role of
  podatr schools in p parng licensure applicants, The Association should be consulted about
  the tyes of trning needed to meet State or national standards, and how best to meet existing
  standards. Accordngly, we suggest the following recommendation be considered for in­
  clusion in the OIG repon.

                     The American Association of Colleges of
                     Podiatrc Medicine should encourage
                                                            more
                     extensive and effective interaction between
                     the podiatr schools and State podiatr boards.
  Public Health Service Assistance



  With regar to the OIG recommendation that PHS should assist the Federation to extend and
 improve its technical assistace and information and
                                                     dissemination activities, the Health
 Resoures and Services Admnistrtion, PHS, awared a contrct to
 The contrct is to (1)                                              the Federation last May.
                        develop a classification of
 miing the actions to be taen , and (2) implementdisciplinar
                                                   a
                                                                actions and guidelines for
                                                                                             deter­
 use of the classification and guidelines. This projectprogrm    to educate
                                                        is intended         the State
                                                                     to improve the boards in the
 licensur disciplinar actions
                                 against podiatrsts and wil contrbute to the value unifonnty
                                                                                   of discipli­
                                                                                                of.
 nar   action data when it is submitted to the National Practitioner Data
                                                                          Ban.
 PHS recognizes that there  ar other aras in which the Federation needs assistace and
 continue to provide such technical assistance. In addition, PHS                      wil
                                                                  wil continue to    work with the

 podiatrc profession to enhance the education and practice of its professionals.


HCFA COMMENTS

We have reviewed the draft repon which focuses on State licensure and discipline practices
concerning podiatrsts. The major finding in
                                                the repon is that in bOth licensure and discipline
realms, State board offcials tend to feel that
                                               they ar seriously understaffed and, as a result
the effectiveness of both licensure and discipline operations   is compromised. Since
mendations in the report require action by HCFA                                      no recom­
                                                   , we have no specific comments to offer.
We concur with the repon s findings and recommendations, and we support the effons of the
DIG  to improve the current State practices. Thank you for the opponunity to comment on this
repon.
OIG RESPONSE TO ALL COMMENTS

We ar pleased with the positive responses to the repon and indications of progrss in address­
ing issues raised in it.

At the -same time, we must note that continued progrss could be jeopardized if State govern­
ments do not act to assure that State boards have suffcient resources to car out their respon­
sibilities effectively. The same applies with respect to FPMB. We applaud the actions it has
taken, yet, we agree with PHS that additional staf capacity is needed to car out the more
substatial role we have defined.

With respect to AACPM' s concerns about the constraits imposed upon podatrc physicians
in moving from State to State, we must note that these constraints were not often mentioned
durig our discussions with the State bo:uds. On page 8 of the repon, however, we do address
that the mobilty of podiatrsts remains limited.

Finally, in regard to PHS' s suggestion that we consider an additional recommendation urging
the American Association of Colleges of Podatrc Medicine to encourage " more extensive and
effective interaction between the podiatr schools and State podatr boars, " we share its con­
cern about the importnce of such interaction. However, because this issue was not addrssed
or rased in our study, ' we feel that it is beyond the scope of our recommendations.
